                                        SOCIAL SECURITY
MEMORANDUM
Date:   November 10, 2004                                                                   Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Top Issues Facing Social Security Administration Management—Fiscal Year 2005



        The Reports Consolidation Act of 2000 requires that we summarize for inclusion in the Social
        Security Administration’s (SSA) Performance and Accountability Report, our perspective on the
        most serious management and performance challenges facing SSA. The top management issues
        facing SSA in Fiscal Year 2005, as determined by the Office of the Inspector General, are:
        Social Security Number Protection, Management of the Disability Process, Improper Payments,
        Internal Control Environment and Performance Measures, Critical Infrastructure Protection and
        Systems Security, and Service Delivery.

        These areas are dynamic, so we encourage continuous feedback and additional areas to evaluate.
        Our summary of SSA’s progress in addressing these management issues will be included in the
        Fiscal Year 2005 Performance and Accountability Report.

        If you have any questions or need additional information, please call me or have your staff
        contact Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.



                                                            S
                                                            Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        James B. Lockhart
        Larry Dye
        Larry Love
Top Issues Facing
Social Security Administration
Management




                          Fiscal Year 2005
The Reports Consolidation Act of 20001 requires              SSA’s progress in responding to the Office
that we summarize, for inclusion in the Social               of Management and Budget’s (OMB)
Security Administration’s (SSA) Performance                  Scorecard;
and Accountability Report, our perspective on
the most serious management and performance                  the Inspector General’s Strategic Plan;
challenges facing SSA. Since 1997, we have                   the high-risk list prepared by the Government
provided our perspective on these management                 Accountability Office (GAO); and
challenges to Congress, SSA and other key                    our body of audit and investigative work.
decisionmakers. In developing this year’s list,
we considered                                           Finally, we prepared a crosswalk to ensure there
    the four initiatives the Commissioner has           was no disconnect or gap among those reviewing
    identified as priorities: Service, Stewardship,     SSA’s programs and operations.
    Solvency, and Staff;
   the most significant issues as outlined in the
   President’s Management Agenda (PMA);


     Crosswalk of PMA to Commissioner Priorities, OIG Management Challenges, Social Security
                            Advisory Board, and GAO Challenges
     PMA            Commissioner        OIG Major                Social Security        GAO Performance and
                      Priorities        Management               Advisory Board        Accountability Challenges
                                        Challenges
 Expanded           Service        Service Delivery            Service to the Public   Service Delivery
 Electronic
 Government                        Management of the                                   Improve the Disability
                                   Disability Process                                  Determination Service
                                                                                       Process and Return to Work
                                                               Disability Reform
                                                                                       Disability Insurance—
                                                                                       High Risk
 Improved           Stewardship    Improper Payments           SSN Case Handling       Supplemental Security
 Financial                                                     Quality                 Income
 Performance        Solvency       Critical Infrastructure
                                   Protection and Systems      SSN Misuse              Information Security
 Competitive                       Security
 Sourcing                          SSN Protection

 Budget and                        Internal Control
 Performance                       Environment and
 Integration                       Performance Measures
 Strategic          Staff          Service Delivery            Staffing                Human Capital
 Management                                                    Hiring
 of Human                                                      Training
 Capital                                                       Management
                                                               Work Measurement



     1
         Pub. L. No. 106-531.

                                     Top Management Challenges
                                                1
    SOCIAL SECURITY NUMBER                             consider revising its policies to require
          PROTECTION                                   that field offices obtain independent
 The SSN is the single most widely used                verification of the birth records for
     identifier for Federal and State                  U.S. citizens under age 1 before SSN
  governments, as well as the private                  assignment.
                   sector.
                                                    SSA has taken steps to improve controls
In FY 2003, SSA issued over 17.6 million            within its enumeration process, including
original and replacement Social Security            establishing the Enumeration Response Team.
number (SSN) cards, and SSA received                As a result of the Team’s efforts, SSA now
approximately $533 billion in employment            performs full collateral verification of all
taxes related to earnings under assigned            immigration documents before assigning
SSNs. Protecting the SSN and properly               SSNs to noncitizens. SSA requires
posting the wages reported under SSNs are           mandatory interviews for all applicants for
critical to ensuring eligible individuals receive   original SSNs who are over age 12 (lowered
the full benefits due them.                         from age 18) and requires evidence of identity
                                                    for all children, regardless of age. In addition,
Efforts to Protect the SSN                          SSA has established an Enumeration Center
                                                    in Brooklyn, New York, that focuses
The SSN has become a key to social, legal,          exclusively on assigning SSNs and issuing
and financial assimilation in this country.         SSN cards. SSA has also created an Identity
Because the SSN is so heavily relied on as an       Theft Workgroup in which we participate.
identifier, it is also valuable as an illegal
commodity. Criminals improperly obtain
                                                    The SSN and Reported Earnings
SSNs by (1) presenting false documentation;
(2) stealing another person’s SSN;                  Properly posting earnings ensures eligible
(3) purchasing an SSN on the black market;          individuals receive the full retirement,
(4) using the SSN of a deceased individual; or      survivor and/or disability benefits due them.
(5) creating a nine-digit number out of thin        If earnings information is reported incorrectly
air.                                                or not reported at all, SSA cannot ensure all
                                                    eligible individuals are receiving the correct
To ensure SSN integrity, SSA must employ
                                                    payment amounts. In addition, SSA’s
effective front-end controls in its enumeration
                                                    disability programs depend on earnings
process. To effectively combat SSN misuse,
                                                    information to determine whether an
we believe SSA should
                                                    individual is eligible for benefits and to
   establish a reasonable threshold for the         calculate the amount of benefit payments.
   number of replacement SSN cards an
                                                    SSA spends scarce resources correcting
   individual may obtain during a year and
                                                    earnings data when incorrect information is
   over a lifetime,
                                                    reported. The Earnings Suspense File (ESF)
   continue to address identified weaknesses        is the Agency’s record of annual wage reports
   in its information security environment to       for which wage earners’ names and SSNs fail
   better safeguard SSNs, and                       to match SSA’s records. As of October 2003,




                                  Top Management Challenges
                                             2
SSA had posted 9.6 million wage items to its       The SSN and Unauthorized Work
ESF for Tax Year 2001, representing about
$56 billion in wages. This was before some         SSA also assigns nonwork SSNs to
planned edits, which may have further              noncitizens who are (1) in the United States
reduced this number.                               but are not authorized to work and (2) are not
                                                   present in the United States but are entitled to
While SSA has limited control over the             a federally-financed benefit that requires an
factors that cause the volume of erroneous         SSN. In recent years, SSA has strictly limited
wage reports submitted each year, there are        the assignment of such numbers.
still areas where the Agency can improve its
processes. SSA can improve wage reporting          Furthermore, SSA monitors noncitizens who
by educating employers on reporting criteria,      show earnings under a nonwork SSN and
identifying and resolving employer reporting       reports this information to the Department of
problems, and encouraging greater use of the       Homeland Security (DHS). Nonetheless, our
Agency’s SSN verification programs. SSA            audits have noted a number of issues related
also needs to coordinate with other Federal        to nonwork SSNs, including (1) the type of
agencies with separate, yet related, mandates.     evidence provided to obtain a nonwork SSN,
For example, the Agency now collaborates           (2) the reliability of nonwork SSN
with the Internal Revenue Service to achieve       information in SSA’s records, (3) the
more accurate wage reporting.                      significant volume of wages reported under
                                                   nonwork SSNs, and (4) the payment of
SSA has taken steps to reduce the size and         benefits to noncitizens who qualified for their
growth of the ESF. For example, SSA has            benefits while working in the country without
expanded its Employee Verification Service         proper authorization.
by piloting an on-line service called the Social
Security Number Verification Service, which        Recent legislation (Pub. L. 108-203, Social
allows employers to verify the names and           Security Protection Act of 2004) prohibits the
SSNs of employees before reporting their           payment of Title II benefits based on the
wages to SSA. The Agency has also modified         earnings of any individual who is not a
its automated processes to better identify the     U.S. citizen or national and who has never
numberholder related to suspended items.           been issued an SSN to work in the United
Whereas previous internal edits used only the      States. SSA’s implementation of this new
name and SSN related to the suspended wage,        law will require increased coordination with
SSA stated the new processes would use             DHS to ensure SSA has the correct work
information stored on the earnings and             status information in its systems.
benefits records.




                                  Top Management Challenges
                                             3
       MANAGEMENT OF THE                           time has increased significantly from
                                                   274 days in FY 2000 to 344 days in FY 2003.
       DISABILITY PROCESS                          Further, the pending workload was
                                                   591,562 cases on September 30, 2003,
     In FY 2003, DDSs processed over               whereas it was 346,756 cases on
  2.5 million initial disability claims, and
                                                   September 30, 2000. We have focused our
the average processing time was 97 days.
                                                   attention on weaknesses within OHA—such
SSA administers the Disability Insurance (DI)      as the backlog of cases, safeguards for
and Supplemental Security Income (SSI)             sensitive information in case files, and
programs, which provide benefits based on          shredding documents.
disability. Most disability claims are initially
                                                   GAO added modernizing Federal disability
processed through a network of Social
                                                   programs—including SSA’s—to its 2003
Security field offices and State Disability
                                                   high-risk list due, in part, to outmoded
Determination Services (DDS). SSA
                                                   concepts of disability, lengthy processing
representatives in the field offices are
                                                   times, and decisional inconsistencies. In
responsible for obtaining applications for
                                                   September 2003, the Commissioner of Social
disability benefits, disability report forms and
                                                   Security proposed a new approach to
authorization for disclosure of information
                                                   improving the disability determination
forms as well as verifying non-medical
                                                   process, which includes several initiatives that
eligibility requirements, which may include
                                                   emphasize timely and accurate disability
age, employment, marital status, or Social
                                                   decisions. For example, a quick-decision step
Security coverage information. After initial
                                                   would initially sort claims based on
processing, the field office sends the case to a
                                                   information provided by claimants to identify
DDS to develop medical evidence and
                                                   people who are obviously disabled.
evaluate disability.
                                                   Additionally, the Commissioner proposed an
Once SSA establishes an individual is eligible     in-line quality review process and a
for disability benefits under either the DI or     centralized quality control unit. The
SSI program, the Agency turns its efforts          Commissioner views her September 2003
toward ensuring the individual continues to        proposal as the first step in a collaborative
receive benefits only as long as SSA’s             process eventually leading to a final plan for
eligibility criteria are met. For example, a       disability improvements.
continuing disability review (CDR) may show
                                                   In addition to her long-term proposal, the
the individual no longer meets SSA’s
                                                   Commissioner has accelerated the Agency’s
disability criteria or has demonstrated medical
                                                   transition to the electronic disability folder.
improvement.
                                                   The electronic disability folder will allow for
If an individual disagrees with the Agency’s       disability claims information to be stored
decision on his/her claim or CDR, the              electronically and transmitted electronically
claimant can appeal to SSA’s Office of             between field offices, DDSs, and OHA.
Hearings and Appeals (OHA). OHA’s field
structure consists of 10 regional offices and
140 hearing offices. OHA’s administrative
law judges hold hearings and issue decisions.
In FY 2003, hearing offices processed
571,928 cases. OHA’s average processing


                                  Top Management Challenges
                                             4
                                                    Improper payments are defined as payments
Disability Fraud                                    that should not have been made or were made
                                                    for incorrect amounts. Examples of improper
Fraud is an inherent risk in SSA’s disability
                                                    payments include inadvertent errors,
programs. Some unscrupulous people view
                                                    payments for unsupported or inadequately
SSA’s disability benefits as money waiting to
                                                    supported claims, or payments to ineligible
be taken. A key risk factor in the disability
                                                    beneficiaries. Furthermore, the risk of
program is individuals who feign or
                                                    improper payments increases in programs
exaggerate symptoms to become eligible for
                                                    with
disability benefits. Another key risk factor is
the monitoring of medical improvements for             a significant volume of transactions,
disabled individuals to ensure those
individuals who are no longer disabled are             complex criteria for computing payments,
removed from the disability rolls.                     and
We are working with SSA to address the                 an overemphasis on expediting payments.
integrity of the disability programs through
the Cooperative Disability Investigation            The President and Congress have expressed
(CDI) program. The CDI program’s mission            interest in measuring the universe of improper
is to obtain evidence that can resolve              payments within the Government. In August
questions of fraud in SSA’s disability              2001, OMB published the FY 2002 PMA,
programs. The CDI program is managed in a           which included a Government-wide initiative
cooperative effort between SSA’s Office of          for improving financial performance. In
Operations, the Office of the Inspector             November 2002, the Improper Payments
General, and the Office of Disability               Information Act of 2002 was enacted, and
Programs. There are 18 CDI units operating          OMB issued guidance in May 2003 on
in 17 States. In the first half of FY 2004, the     implementing this law.
CDI units saved SSA almost $64 million by
identifying fraud and abuse related to initial      Under the Act, agencies that administer
and continuing claims within the disability         programs where the risk of improper
program.                                            payments is significant must estimate their
                                                    annual amount of improper payments and
        IMPROPER PAYMENTS                           report this information in their Annual
                                                    Performance and Accountability Reports.
     In FY 2003, SSA issued over                    OMB works with each agency to establish
$500 billion in benefit payments to about           goals for reducing improper payments for
         50 million beneficiaries.                  each program.

SSA issues benefit payments under the               SSA and the Office of the Inspector General
Old-Age, Survivors and Disability Insurance         have had discussions on such issues as
(OASDI) and SSI programs. Since SSA is              detected versus undetected improper
responsible for issuing timely benefit              payments and avoidable versus unavoidable
payments for complex entitlement programs           overpayments that are outside the Agency’s
to about 50 million individuals, even the           control and a cost of doing business. In
slightest error in the overall process can result   August 2003, OMB issued specific guidance
in millions of dollars in over- or                  to SSA to only include avoidable
underpayments.                                      overpayments in its improper payment


                                   Top Management Challenges
                                              5
estimate because these payments could be                INTERNAL CONTROL
reduced through changes in administrative
actions. Unavoidable overpayments that                  ENVIRONMENT AND
result from legal or policy requirements are          PERFORMANCE MEASURES
not included in SSA’s improper payment
estimate.                                          Assessing the control environment over
                                                   DDSs and SSA’s performance measures
SSA has been working to improve its ability         helps ensure the Agency is properly
to prevent over- and underpayments by             managing its resources to meet it mission.
obtaining beneficiary information from
independent sources sooner and/or using           Internal control comprises the plans, methods,
technology more effectively. For example,         and procedures used to meet missions, goals,
the Agency is continuing its efforts to prevent   and objectives. Internal controls help
improper payments after a beneficiary dies        safeguard assets and prevent and detect errors
through the use of Electronic Death               and fraud. Assessing the internal control
Registration information. Also, the Agency’s      environment is important since internal
CDR process identifies and prevents               control is a critical part of performance-based
payments to beneficiaries who are no longer       management. SSA’s internal control
disabled.                                         environment helps its managers achieve
                                                  desired results through effective stewardship
In FY 2004, we focused on improper                of public resources.
payments that go undetected by SSA’s normal
processes. For instance, in one review of         SSA is responsible for implementing policies
disabled beneficiaries who work, we found         for the development of disability claims under
that SSA had assessed about $1.78 billion in      the DI and SSI programs. Disability
overpayments for about 117,320 individuals.       determinations under both DI and SSI are
However, we estimated the Agency did not          performed by DDSs in each State in
detect about $1.37 billion in overpayments to     accordance with Federal regulations. In
about 63,000 beneficiaries. SSA is                carrying out its obligation, each DDS is
implementing eWork, a new initiative to           responsible for determining claimants’
strengthen controls in this area.                 disabilities and ensuring adequate evidence is
                                                  available to support its determinations. To
Working with SSA, we have made great              assist in making proper disability
strides in reducing benefit payments to           determinations, each DDS is authorized to
prisoners and SSI payments to fugitive felons,    purchase medical examinations, x-rays, and
and these efforts continue. However, our          laboratory tests on a consultative basis to
work has shown that improper payments—            supplement evidence obtained from the
such as those related to workers’                 claimants’ physicians or other treating
compensation—continue to diminish the             sources. There are 52 DDSs located in each
Social Security trust funds. Additionally,        of the 50 States, the District of Columbia, and
with the passage of the Social Security           Puerto Rico. SSA reimburses the DDS for
Protection Act of 2004, SSA faces new             100 percent of allowable expenditures up to
challenges in preventing and recovering           its approved funding authorization. In FY
improper payments—such as OASDI benefits          2003, SSA allocated over $1.6 billion to fund
to fugitives.                                     DDS operations.



                                 Top Management Challenges
                                            6
During FYs 2000 through 2003, we                    SSA sets forth its mission and strategic goals
conducted 15 DDS administrative cost audits.        in strategic plans, establishes yearly targets in
In 13 of the 15 audits, internal control            its annual performance plan, and reports on its
weaknesses were identified. For example, we         performance annually. Each year, we conduct
reported that improvements were needed to           audits to assess the internal control
ensure Federal funds were properly drawn            environment over SSA’s performance
and payments to medical providers were in           measures. The objective of this work is to
accordance with Federal regulations. The            assess the reliability of SSA’s performance
lack of effective internal controls can result in   data and evaluate the extent to which SSA’s
the mismanagement of Federal resources and          performance measures describe its planned
increase the risk of fraud.                         and actual performance meaningfully.
In 6 of the 15 DDS administrative cost audits,      Assessing the control environment over DDSs
we reported unallowable indirect costs              and SSA’s performance measures helps
totaling about $12.3 million. As a result, we       ensure the Agency is properly managing its
initiated a separate review of SSA’s oversight      resources to meet its mission.
of indirect costs. We reported that SSA
needed to improve its oversight of indirect
costs claimed by DDSs to ensure SSA funds              CRITICAL INFRASTRUCTURE
obligated by DDSs through the indirect cost            PROTECTION AND SYSTEMS
process benefited SSA’s disability programs                    SECURITY
and the costs were equitably distributed to its
programs.                                           The information technology revolution has
                                                       changed the way government and
Congress, external interested parties, and the                 business operate.
general public need sound data to monitor and
evaluate SSA’s performance. SSA relies              Today, the growth in computer
primarily on internally generated data to           interconnectivity brings a heightened risk of
manage the information it uses to administer        disrupting or sabotaging critical operations,
its programs and report to Congress and the         reading or copying sensitive data, and
public. The necessity for good internal data        tampering with critical processes. Those who
Government wide has resulted in the passage         wish to disrupt or sabotage critical operations
of several laws, including the Government           have more tools than ever. The United States
Performance and Results Act. In addition to         works to protect the people, economy,
the legislation calling for greater                 essential services, and national security by
accountability within the Government, the           ensuring that any disruptions are infrequent,
PMA has focused on the integration of the           manageable, of minimal duration, and cause
budget and performance measurement                  the least damage possible. The Government
processes. The PMA calls for agencies to,           must continually strive to secure information
over time, identify high quality outcome            systems for critical infrastructures. Protection
measures, accurately monitor the performance        of these systems is essential to
of programs, and begin integrating this             telecommunications, energy, financial
presentation with associated costs.                 services, manufacturing, water, transportation,
                                                    health care, and emergency services.




                                   Top Management Challenges
                                              7
SSA’s information security challenge is to         allowed inappropriate access to secured areas.
understand and mitigate system                     Though the managers at these sites took
vulnerabilities. At SSA, this means ensuring       prompt action to remedy the security
the security of its critical information           breaches, we believe the same security
infrastructure, such as access to the Internet     concerns may be present at other hearing
and its networks. By improving systems             offices. However, because our observations
security and controls, SSA will be able to use     were limited to only a few offices, we do not
current and future technology more                 know how pervasive these security breaches
effectively to fulfill the public’s needs. The     may be. We plan to better assess OHA’s
public will not use electronic access to SSA       vulnerabilities in this area.
services if it does not believe those systems
are secure. SSA addresses critical                 In addition, under the Federal Information
information infrastructure and systems             Security Management Act, we independently
security in a variety of ways. For example, it     evaluate SSA’s security program. We also
has created a Critical Infrastructure Protection   monitor the Agency’s efforts and progress on
work group that works toward compliance            the Expanded Electronic Government
with various directives, such as the Homeland      initiative of the PMA. Systems security is a
Security Presidential Directives and the           key component of this initiative, and we are
Federal Information Security Management            working with the Agency to resolve
Act of 2002. SSA has several other                 outstanding issues so it can get to “green” on
components throughout the organization that        the Electronic Government Scorecard.
handle systems security, including the Office
of Information Technology Security Policy                    SERVICE DELIVERY
within the Office of the Chief Information
Officer.                                           Given the complexity of Agency programs,
                                                      the billions of dollars in payments at
Homeland Security Presidential Directive 7           stake, and the millions of citizens who
requires that all Federal departments and          rely on SSA, we must ensure that quality,
agency heads identify, prioritize, assess,            timely, and appropriate services are
remediate, and protect their respective critical     consistently provided to the public-at-
infrastructure and key resources. OMB                                  large.
provided guidance to Federal departments and
                                                   One of SSA’s goals is to deliver high-quality,
agencies on how to prepare plans to protect
                                                   “citizen-centered” service. This goal
physical and cyber critical infrastructure and
                                                   encompasses traditional and electronic
key resources and to complete these plans by
                                                   services to applicants for benefits,
July 31, 2004. We have worked closely with
                                                   beneficiaries and the general public. It
SSA to help meet these requirements. The
                                                   includes services to and from States, other
Agency plans must address identification,
                                                   agencies, third parties, employers, and other
prioritization, protection, and contingency
                                                   organizations, including financial institutions
planning, including the recovery and
                                                   and medical providers. This area includes
reconstitution of essential capabilities.
                                                   basic operational services, and two of the
One important issue in systems security is         greatest challenges in the area are the
restricting physical access to the Agency’s        representative payee process and managing
systems and data. We reported on physical          human capital.
security problems at several hearing offices
and noted that non-SSA employees were

                                  Top Management Challenges
                                             8
Representative Payee Challenges                  Human Capital Challenges
When SSA determines a beneficiary cannot         SSA, like many other Federal agencies, is
manage his/her benefits, SSA selects a           being challenged to address its human capital
representative payee who must use the            shortfalls. In January 2001, GAO added
payments for the beneficiary’s needs. There      strategic human capital management to its list
are about 5.4 million representative payees      of high-risk Federal programs and operations.
who manage benefit payments for 6.8 million      In addition, Strategic Management of Human
beneficiaries. While representative payees       Capital is one of five Government-wide
provide a valuable service for beneficiaries,    initiatives contained in the PMA.
SSA must provide appropriate safeguards to
ensure they meet their responsibilities to the   By the end of 2012, SSA projects its DI and
beneficiaries they serve.                        Old-Age and Survivors Insurance benefit rolls
                                                 will increase by 35 percent and 18 percent,
We have completed several audits of              respectively. At the same time, 59 percent of
representative payees. Our audits have           SSA’s employees will be eligible to retire.
identified                                       This retirement wave will result in a loss of
                                                 institutional knowledge that will affect SSA’s
   deficiencies with the accounting for          ability to deliver quality service to the public.
   benefit receipts and disbursements,
                                                 Along with the workload increase, the
   vulnerabilities in the safeguarding of        incredible pace of technological change will
   beneficiary payments,                         have a profound impact on both the public’s
                                                 expectations and SSA’s ability to meet those
   poor monitoring and reporting to SSA of       expectations. In the face of these challenges,
   changes in beneficiary circumstances,         technology is essential to achieving
                                                 efficiencies and enabling employees to deliver
   inappropriate handling of beneficiary-        the kind of service every claimant, beneficiary
   conserved funds, and                          and citizen needs and deserves.
   improper charging of fees.                    The critical loss of institutional skills and
                                                 knowledge, combined with greatly increased
In March 2004, the President signed into law
                                                 workloads at a time when the baby-boom
the Social Security Protection Act of 2004.
                                                 generation will require its services, must be
This Act provides several new safeguards for
                                                 addressed by succession planning, strong
those individuals who need a representative
                                                 recruitment efforts, and the effective use of
payee. In addition, it presents significant
                                                 technology.
challenges to SSA to ensure representative
payees meet beneficiaries’ needs. For            SSA continues to score “green” in “Progress
example, it requires that SSA conduct            in Implementing the President’s Management
periodic on-site reviews of representative       Agenda” on the OMB Scorecard and, in July
payees and a statistically valid survey to       2004, improved its rating in “Status” from
determine how payments made to                   “yellow” to “green.”
representative payees are being used. It also
authorizes SSA to impose civil monetary
penalties for offenses involving misuse of
benefits received by a representative payee.

                                 Top Management Challenges
                                            9
